<html>
<title> - NEITHER APPEASEMENT NOR IMPROVEMENT? PROSPECTS FOR U.S. ENGAGEMENT WITH SYRIA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
NEITHER APPEASEMENT NOR IMPROVEMENT? PROSPECTS FOR U.S. ENGAGEMENT WITH 
                                 SYRIA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 21, 2010

                               __________

                           Serial No. 111-99

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
56-093                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84e3f4ebc4e7f1f7f0ece1e8f4aae7ebe9aa">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>Until 5/5/10 deg.
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                  GARY L. ACKERMAN, New York, Chairman
RUSS CARNAHAN, Missouri              DAN BURTON, Indiana
MICHAEL E. McMAHON, New York         JOE WILSON, South Carolina
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
SHELLEY BERKLEY, Nevada              JEFF FORTENBERRY, Nebraska
JOSEPH CROWLEY, New York             MICHAEL T. McCAUL, Texas
MIKE ROSS, Arkansas                  BOB INGLIS, South Carolina
JIM COSTA, California                GUS BILIRAKIS, Florida
KEITH ELLISON, Minnesota             DANA ROHRABACHER, California
RON KLEIN, Florida                   EDWARD R. ROYCE, California
BRAD SHERMAN, California
ELIOT L. ENGEL, New York
GERALD E. CONNOLLY, Virginia
GENE GREEN, Texas
VACANT<greek-l>Until 6/9/10 deg.
              Howard Diamond, Subcommittee Staff Director
           Mark Walker, Republican Professional Staff Member
 Dalis Adler, Staff Associate<greek-l>From Blumenfeld as of 9/9/09 deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Jeffrey D. Feltman, Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State (Former United 
  States Ambassador to Lebanon)..................................    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the Middle 
  East and South Asia: Prepared statement........................     4
The Honorable Jeffrey D. Feltman: Prepared statement.............    18

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43


NEITHER APPEASEMENT NOR IMPROVEMENT? PROSPECTS FOR U.S. ENGAGEMENT WITH 
                                 SYRIA

                              ----------                              


                       WEDNESDAY, APRIL 21, 2010

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:44 p.m. in 
room 2172, Rayburn House Office Building, Hon. Gary Ackerman 
(chairman of the subcommittee) presiding.
    Mr. Ackerman. Committee will come to order. There has been 
a lot of news about Syria lately, but that is not why this 
hearing was scheduled. Work on this hearing began well before 
SCUD missiles were once again in the news. In fact, the 
conceptual roots of this hearing go back to May 2008, when 
Hezbollah waged a brief, but effective, street war against the 
legitimate, constitutionally framed, democratically elected 
Government of Lebanon. We should all remember that event 
because that was the point when American dreams and illusions 
about Lebanon should have been laid to rest.
    In a region where politics is a deadly business and no 
quarter is given to the weak, the United States, throughout the 
period from the Seda revolution to the Hezbollah insurrection 
pursued a policy ripe with bombast and bluster, but backed only 
by empty words. Facing vicious, determined foes playing for the 
highest possible stakes, the previous administration offered 
only token opposition while maintaining a fierce, hard line, at 
least in words. Even as U.S. forces turned the tide in Iraq by 
allying with previously adversarial Suni insurgents to defeat 
al-Qaeda, our official policy remains fixed for the principle 
that speaking to our foes was an insufferable dishonor.
    As Vice President Cheney put it: We don't negotiate with 
evil, we defeat it. A very admirable sentiment, but what 
happened during this period of toughness and ideological zeal? 
When U.N. Security Council Resolution 1701, which prohibited 
arms sales or transfers to Hezbollah, was violated almost 
instantly, what was the U.S. response? Empty words. When the 
March 14 majority in Parliament and liberal journalists began 
to be assassinated one by one, what was the U.S. response? 
Empty words. When the March 14 majority was unable to convene 
Parliament to name a president of their choosing, what was the 
U.S. response? Empty words. When Hezbollah took to the streets 
to challenge the authority of the Government of Lebanon, what 
was the U.S. response? Again, empty words.
    When Saudi Arabia and France changed policy and began to 
court Damascus, what was the U.S. response? Empty words. When 
Syria refused to cooperate with the IEA's investigation of the 
bombed al-Qaeda reactor, what was the U.S. response? Empty 
words. In terms of U.S. credibility, the Obama administration 
inherited not a partial failure, but a total collapse. Even as 
the Seda revolution was progressively swallowed up by 
insurrection from within and subversion from without, previous 
administration changed the rhetoric or its belief that speaking 
directly to Damascus was an unwarranted gift. They certainly 
believed in the efficacy of coercion from the moral high 
ground, but somehow never actually got around to doing very 
much of it when it came to Syria.
    Sadly, what counts in the world and nowhere more so than 
the Middle East, is power, hard and soft, and the will and 
capacity to use it. During the years from 2005 to 2009, all the 
bluster, notwithstanding our foes, took our measure and found 
the United States clearly lacking. Nearly all the reverses 
Damascus and its allies suffered from the Seda revolution have 
now mostly been undone. From the policymakers and supporters of 
the previous administration, who, in decency, ought to have 
slunk off in shamed silence for having watched fecklessly as 
this disaster, like Iran's steady march toward nuclear weapons 
capability unfolded under their watch, what do they have to say 
today? Appeasement, appeasement, they cry, attempting to evoke 
the days leading up to World War II.
    This charge is grotesque. Apart from the indecency of the 
comparison with the unique horror and evil of Nazi Germany, the 
cheap demagoguery of the word utterly fails to capture what the 
Obama administration is actually doing. Where, one might ask, 
is the long list of concessions from Americans to Syria? Where 
is the surrender and the sellout of our allies? Where is the 
retreat in the face of challenge? A few airplane parts? A few 
inconclusive meetings? The string of defeats and failures that 
brought us to the current impasse occurred, let us not forget, 
during the previous administration. The seeming limits of 
American power were brutally exposed well before Barack Obama 
was even elected to his high office.
    Appeasement? That is shameless nonsense and more empty 
words. It is true that the Obama administration is pursuing a 
different policy than the spectacular failure of its 
predecessor, but that is just good sense. Everywhere but 
Washington, not repeating mistakes is considered a good, or 
even a very good thing. There is one criticism of the 
administration's Syria policy that I do hold with and hope can 
be corrected today. The explanation of it has been poor, and 
the defense of it even worse. Though I have focused heavily on 
foreign policy during my time in Congress, my professional 
background is as a public school teacher and as a publisher of 
community newspapers. From both positions I learned a lot, but 
nothing more important than these two truths. Nothing explains 
itself, and nothing sells itself.
    If you want to understand that our policy with Syria is not 
predicated on compelling major changes in Syrian behavior in 
the short term, that has to be explained. If you want people to 
understand that our policy of sanctions and political pressure 
will be sustained until there are changes in Syrian behavior, 
that has to be explained. If you want the people to understand 
that dispatching an American ambassador to Syria is a tool to 
send and receive messages and to gather political intelligence 
for our own use, that has to be explained. If you want people 
to understand that trying diplomacy with Syria is not a 
betrayal of our values or our friends, that has to be 
explained. That is why we are here today. Hopefully to make 
things clear, to make things plain, to give the Obama 
administration its chance to explain a policy which I suspect 
will be frustrating and slow, but at least at the very least it 
will be one founded on more than just empty words. Now I am 
happy to call upon my friend and partner in the hearing, Dan 
Burton.
    [The prepared statement of Mr. Ackerman 
follows:]<greek-l>Ackerman statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Burton. Thank you, Mr. Chairman. Before I make my 
formal remarks I would just like to say since the previous 
administration has been somewhat castigated, let me say the 
support for Israel and Bibi Netanyahu and his administration 
has been wanting by this administration. This administration, 
in my opinion, has shown very little support and respect for 
Mr. Obama and Israel, and that is of great concern to me today. 
Let me now get to my statement. Mr. Chairman, thank you very 
much for convening today's hearing to examine future relations 
with Syria. I find it very important and timely in light of the 
recent troubling reports surfacing in the media that Syrian 
President al-Assad is continuing the country's dubious 
precedent of sponsoring terrorism in the region.
    Despite little evidence to suggest that the Syrian 
Government has actively sought to improve upon its track record 
as an international sponsor of terrorism, the Obama 
administration, in concert with its overall misguided policy 
toward the Middle East, has sought to improve bilateral 
relations through enhanced diplomatic efforts. This is a 
terrorist state. Just like the administration's policy toward 
Iran and Israel, I find these efforts to be not only imprudent, 
but also extremely counterproductive to U.S. policy in the 
region. Now we see another of Obama's diplomatic efforts, the 
engagement with Syria, come back to bite us in the end. I would 
use stronger language but think you get the message.
    Syria has not altered its hostile behavior, nor provided 
any assurances that they are willing to do so as it continues 
to undermine Lebanese sovereignty; pursue their own covert 
nuclear program; support not only Hezbollah, but other Islamist 
extremist groups, such as Hamas and al-Qaeda in Iraq; stockpile 
both ballistic and unconventional weapons; preserve its close 
relationship with Iran; and obstruct the investigations of the 
International Atomic Energy Agency of their alleged nuclear 
site that Israel targeted in 2007, among other things. In my 
opinion, these illicit activities pose a substantial threat to 
U.S. troops in the region, as well as the security of U.S. 
allies throughout the Middle East.
    In fact, Syria's behavior, like its sponsor, Iran, has 
become increasingly belligerent and threatening, as evidenced 
by the recent reports of its supplying Hezbollah with medium-
range SCUD missiles. This development comes a little more than 
a month after U.S. Under Secretary of State for Political 
Affairs William Burns met with President al-Assad in Syria and 
held additional talks shortly afterwards. During these talks, 
the United States demanded that Syria stop the smuggling of 
weapons in Syria to Hezbollah. Clearly, the administration's 
policy of engagement, like in Iran, is not working. According 
to some experts, as of this past December, Hezbollah was known 
to possess missiles capable of reaching Haifa and Tel Aviv.
    Now, as one recent Los Angeles Times editorial notes, this 
new acquisition makes the Lebanese militants the first 
irregular army to possess such weapons and enables them to 
target virtually every bit of Israel. The administration warned 
that such a move could destabilize the region, and clearly, 
such a threat creates yet another setback for the President's 
Middle East policy, a dangerous course of action that has been 
one concession after another, rather than defending our allies, 
like Israel, and our critical national security interests. It 
would appear that this administration believes the problem with 
Syria is an American failure to communicate with or to 
``engage'' the Syrian regime, but the fact of the matter is it 
is not the American willingness to talk to Syria that is a 
problem, but Syria's refusal, like its patron, Iran, to halt 
its hostile actions.
    If the Los Angeles Times report is true, Syrian President 
al-Assad, like Iranian leader Ahmadinejad, is saying one thing, 
last month, for example, he reaffirmed his commitment to 
seeking peace with Israel, while his actions indicate another. 
Michael Rubin of the American Enterprise Institute puts this 
threat and its broader implications into perspective when he 
said this past December that Iran may be Hezbollah's chief 
patron, but Syria is the linchpin that makes Iranian support 
for foreign fighters possible. While Israel may be the 
intermediate target of the Iran-Syria nexus, the partnership 
threatens broader U.S. interests.
    This relationship was further evident in February in a 
meeting in Damascus less than a week after Under Secretary 
Burns' visit when President al-Assad, President Ahmadinejad and 
Hezbollah Secretary General Hassan Nasrallah were the 
triumvirate, guaranteed their resistance against the U.S.-
Israeli alliance, and, as one foreign policy article put it, 
openly mocked U.S. efforts to distance Syria from Iran and 
stated that his government is preparing ourselves for any 
Israeli aggression. Engagement with rogue regimes, like those 
of Syria and Iran, does not work and undermines every U.S. and 
international effort for peace and stability in the Middle 
East.
    The United States, and other nations, must hold the al-
Assad regime, and others like it, accountable for its continued 
support of terrorists and subsequent efforts to destabilize the 
region. I look forward to hearing from our witnesses, Assistant 
Secretary Feltman, as he sheds more light on the issues before 
us, but I think it is extremely important, Mr. Chairman, that 
we state as an administration, and as a government, our 
unequivocal support for Israel in making sure that Israel's 
right to exist is guaranteed, and we are going to do everything 
in our power to make sure that Iran and Syria and their actions 
are not going to be jeopardizing our relationship. Thank you.
    Mr. Ackerman. You will get no argument from me.
    Mr. Burton. I love you, man.
    Mr. Ackerman. I would ask unanimous consent that Mr. Issa 
be allowed to participate in the hearing, speaking and asking 
questions at the end of each round. So ordered. Ms. Berkley?
    Ms. Berkley. Thank you, Mr. Chairman. I think my points of 
view are very well-known to this committee, and certainly to 
the Mr.<greek-l>. deg. I just want to welcome the ambassador. 
Anxious to hear what he has to say, less anxious to hear what 
my colleagues have to say before we hear you, so let me be the 
first to pass.
    Mr. Ackerman. Mr. Royce?
    Mr. Royce. Thank you, Mr. Chairman. Just when you think 
that it can't get any worse, it does. Syria has gone from 
supporting terrorism against U.S. troops in Iraq to political 
murder in Lebanon. It then collaborated with North Korea to 
build a nuclear reactor designed for weapons production. Now we 
have allegations of SCUD transfers to Hezbollah, which is a 
significant escalation of the threat that Nasrallah presents to 
the region, especially given the fact that he could now lob 
those SCUDs into Israel. I was in Israel in August 2006 during 
the Hezbollah war and I was in Haifa. I remember at that time 
the lack of restraint on the part of the rocket attacks into 
the civilian sector of that town, into the business districts.
    At one point the trauma hospital was targeted. I remember 
going into the trauma hospital and talking with some of the 
victims of those attacks, and Syria, of course, had 
manufactured the weapons, the rockets. There were 70,000 ball 
bearings on each one of them. When those crash into the 
business district or crash into people's homes, you can imagine 
what it does. I think there was a presumption in Haifa, because 
it was such a cosmopolitan town with such a lot of Arab-Jews, 
Druze, Arab-Israelis, Jewish-Israelis, and Druze-Israelis, that 
perhaps the civilian sector wouldn't be targeted. It was.
    So now, looking back, I remember going into a bunker at one 
point when we were shelled by rocket fire. I think ahead of the 
fact that if that was problematic, what is it going to mean 
when Hezbollah has this option with the SCUDs? Well, it seems 
the lure of a temperate Syria is a very enduring one because 
when Bashar al-Assad came to power a decade ago there was hope 
that his stint studying abroad and his interest in computers 
would signal openness to the West. That was not to be. More 
recently, The Economist noted that the increasing popularity of 
sushi restaurants in Damascus was a sign that different winds 
are blowing in Syria. That is an interesting theory.
    For some time it has become fashionable in diplomatic 
circles to believe that U.S. engagement with Syria would help 
to flip Damascus out of Iran's orbit. This remains a theory. 
Days after the Obama administration announced its intention to 
return a U.S. ambassador to Damascus, Assad hosted Iran's 
Ahmadinejad and publicly ridiculed U.S. policy in the region. 
This was just after Hassan Nasrallah, Hezbollah's leader, 
joined them for that meeting. Our witness today will present 
the case that increased U.S. engagement with Syria is key to 
curtailing Syrian behavior. But it is important to remember 
that the current debate over the fate of the ambassador 
designee to Damascus is not a debate of diplomatic presence 
versus no presence. We currently have a full and functioning 
embassy in Syria that is engaging in all the things that our 
embassies around the world do, just without an ambassador at 
its helm. A full ambassador might get involved to more parties, 
but I am hard-pressed to see how that would have curtailed the 
assassinations, the terrorism, the proliferation. I just 
thought I would take a moment and make that point. Thank you, 
Mr. Chairman.
    Mr. Ackerman. Thank you very much, Mr. Royce. Mr. Ellison?
    Mr. Ellison. Mr. Chairman, thank you again for holding this 
hearing. Although I won't exactly follow the fine example set 
forth by Ms. Berkley, I hope to be close to her in terms of 
being quick and brief. I want to admire and thank President 
Obama's efforts to establish dialogue or improve dialogue 
between Syria and U.S. officials. This is an important step in 
trying to mend relations, and I believe that both Syrian and 
American people gain from our two governments working together. 
I also applaud the efforts of our witness, Assistant Secretary 
Jeffrey Feltman, for being the first high level State 
Department official to visit Syria since 2005. Efforts like 
this are critical to trying to improve that relationship.
    I also want to note that I don't believe that improved 
dialogue between nations, even where there are clear and 
legitimate conflicts, precludes efforts by either side to 
pursue its national security interests. I don't think that 
dialogue undermines either country's ability to see to the 
well-being of its own citizens, and therefore, I don't think 
that the efforts by the Obama administration to improve 
dialogue in any way undermine U.S. interests. I think they 
stand a good chance of improving them. Of course, there is no 
guarantee, but without dialogue, it is certain that things will 
not proceed on a productive course. So, with that, I thank the 
witness for being here, and I look forward to the witness' 
presentation and to the questions.
    Mr. Ackerman. Thank you, Mr. Ellison. Mr. Rohrabacher?
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I 
appreciate you calling this hearing. I think that it is vital 
for us to understand what is going on in that part of the world 
because that is, of course, very involved with American 
security, as well as Israeli security and the cause of peace. I 
am looking forward to hearing the testimony. Let me just note, 
I would like to know what will it take, what will it take to 
turn Syrian policy around? What are we expected to do, and what 
can we do that will take Syria and perhaps have it come in the 
same course as Jordan and Egypt? Jordan and Egypt have now made 
their peace, and they are certainly just as Arab as Syria, and 
that is one thing that I would like to know.
    Also, how do we promote friendship with a government like 
Syria without sending a message of weakness? What can we do to 
promote friendship, head them in the right direction, without 
appearing to be weak? Our goal isn't continued, and shouldn't 
be, some sort of hostility toward Syria or anybody else in that 
area. Our goal should be is turning people from enemies, or at 
least from hostile powers, into friends. During the Reagan 
administration, let me note, there was nobody who was more 
aggressive in dealing with the Communist threat than Ronald 
Reagan, and by the end of his administration we had turned the 
Soviet Union into a friend, or into a potential friend anyway.
    So what is it going to take? Is the Syrian prerequisite to 
peace with the United States and peace in that region, is it 
eliminating Israel? If that is it, obviously, there is going to 
be no peace. We need to know. Are you insisting that Israel as 
a Jewish nation ceased to exist? Otherwise, we are going to 
continue having this belligerency. We need to have that answer, 
we need to study that. We have heard the litany of things that 
Syria is doing that we disagree with, or not disagree with, but 
find unconscionable: The supplying of weapons, especially if 
they are rockets; support for groups that actually target 
civilians, read that terrorism; support for groups that kill 
American soldiers in their deployment in that part. These are 
things that are just unacceptable, but how do we get the 
Syrians then to stop those things? Not just prove it, but how 
do we get them to change that policy?
    One last note. I would like to know whether or not we have 
a solution that would encompass the water issue. Very few times 
do I come to hearings about Syria and this part of the world 
where water is discussed with the degree that it should be 
discussed, because I see that as a major factor that is never 
really dealt with. Now, obviously the Syrians would like back 
the Golan Heights. My reading of various people in Israel is 
that the Golan Heights issue really isn't a national security 
issue as much as it is a water issue. Is that the case? If that 
is the case, how can we deal with that?
    Is there a way to deal with the water issue, thus, the 
Golan Heights and the security issue? Is there a way that we 
can actually compensate or in some way mitigate what is going 
on so that people won't be giving up water rights that they 
believe are their own in order to have peace? These are some of 
the questions that I hope we get at today, Mr. Chairman. 
Appreciate you having this hearing so that we can have a better 
understanding and better promote peace and stability in that 
region. Thank you.
    Mr. Ackerman. Good questions, Mr. Rohrabacher. Hopefully we 
will get some good answers. Mr. Engel?
    Mr. Engel. Well, thank you very much, Mr. Chairman, for 
holding this hearing today. I appreciate it very much. I think 
it is timely, and I think there are important issues to talk 
about and be answered. Ambassador Feltman, I am glad you are 
appearing before our committee today. Often we hold hearings at 
regular intervals to review U.S. policy toward one region or 
another, but today things are different. The events are more 
complicated, the situation is more dangerous and the worst 
actors are more heavily armed. Early last decade I was pleading 
with the Bush administration to develop a policy toward Syria. 
It was unclear what our goals were toward the Assad regime or 
how we would accomplish them.
    Then, its support for terrorists groups, development of 
weapons of mass destruction, support for guerillas entering 
Iraq and occupation of Lebanon were the most destabilizing 
policies coming out of Damascus. You may recall that in 2003 
Congress passed into law the Syria Accountability and Lebanese 
Sovereignty Restoration Act, which I wrote. It enshrined these 
factors as conditions for improving relations with the United 
States. Since the passage of that law, Syria withdrew its 
forces of occupation from Lebanon. Unfortunately, it continues 
to develop weapons of mass destruction, and support terrorists, 
and reports indicate that Syrian influence inside Lebanon is 
growing. Lebanon once again seems to be held hostage to Syria.
    Syria was a charter member of the State Department's list 
of state sponsors of terrorism back in the 1970s and remains on 
that list today. Less than 3 years ago, Israel was forced to 
destroy a Syria nuclear reactor based on a North Korean design 
that was the center of a nuclear weapons program, and now we 
hear that Syria has sent SCUD missiles to Hezbollah. I am not 
sure how things could be much worse. At the same time, there 
are indications that the Obama administration has taken 
observable steps to improve the relationship with the Assad 
regime, including expediting requests for waivers of sanctions 
and sending an ambassador back to Damascus. Frankly, I don't 
know why. Leopards don't change their spots.
    Unless there is something I don't know about, unless 
something has happened behind the scenes, unless there is a 
wink and a nod by the Assad regime that they want to work with 
us and cooperate with us to stabilize the area, not destabilize 
the area, I don't know why we are sending an ambassador at this 
time. You know, right after we announced we were sending an 
ambassador, it is an olive branch, what happens? Assad welcomes 
Ahmadinejad of Iran to Damascus. It is almost like he is poking 
a finger once again in the eye of the United States. So I don't 
know why we are doing this. I will ask the same question that I 
asked of the previous administration: Do we actually have a 
policy toward Syria, and is it in our best interest, and what 
are we doing?
    I am glad that the State Department has condemned the 
shipment of advanced weapons, including SCUD missiles, to 
Hezbollah, but I want to hear what we are going to do about it 
and how warming up to Syria is going to make things better. As 
for me, Representative Mark Kirk and I will introduce a 
resolution today condemning Syria's shipment of SCUD missiles 
and other advanced weapons to Hezbollah. Our resolution calls 
on the administration to put additional pressure on Damascus, 
including imposing all remaining sanctions under the Syria 
Accountability Act. To this day, I remain unclear as to why the 
Syria Accountability Act has not been fully enforced. It wasn't 
fully enforced under the previous administration, it is not 
being enforced under this administration, and, in fact, I am 
hearing that some of the sanctions that had been imposed are 
now being loosened. I would like to know why.
    So, Mr. Ambassador, I thank you for appearing today, and I 
look forward to addressing the basic question: What is our 
policy toward Syria? I don't think an answer is that we want to 
make nice with them so they will be our friends. I would like 
to have as many friends as we can have, but I also like to be 
realistic. Unless Syria has indicated to us that it is willing 
to work with us to stabilize the area rather than work with its 
friend, Iran, to destabilize the area, I don't know what we get 
out of talking with them and somehow pretending that that is 
going to make things better. If the Assad regime really wants 
to change, then I think we should work with them, but if it is 
going to be the same old stuff, we have been down that dead end 
before and I really don't think that is a solution for the 
future. I thank you, Mr. Chairman, and I yield back the balance 
of my time.
    Mr. Ackerman. Thank you. Mr. McMahon?
    Mr. McMahon. Thank you, Mr. Chairman. Secretary Feltman, it 
is an honor to see you again, and thank you for being here. As 
we know, examples of civil unrest throughout the Middle East, 
the Gulf States, Iraq, and even Bosnia, have been tied to Iran, 
yet these examples are of autonomous states sort of battling 
extremism within their borders. Unfortunately, Syria's 
partnership with Iran stands out against these examples and 
seems to be one of the most direct and mutual alliances. In 
fact, President Assad at the Trilateral Conference even 
referred to the Iran-Syria partnership as a circle of 
cooperation that is expanding. Unfortunately, with the most 
recent news of Syria transferring SCUD missiles that have been 
modified to be fit with chemical warheads to terrorist proxies, 
like Hezbollah, Assad is right, this relationship is definitely 
expanding.
    Syria's support for Hezbollah, an Iranian-controlled entity 
in neighboring Lebanon, leaves Lebanese Christians and moderate 
Muslims in fear of raising their voices against the Syrian 
hegemony over Lebanon reversing the gains made in the Seda 
revolution that resulted in the end of Syrian occupation of 
Lebanon. I hope that increased engagement will eventually bring 
about a Syrian Government that is not compelled toward violence 
and belligerence by Iran and one that decides to finally move 
toward peace with Israel and its neighbors. Secretary Feltman, 
I would appreciate your insight into the administration's 
vision for Syria going forward, particularly after the most 
recent revelation, and also your views on Syrian influence on 
Lebanon given your previous position as the U.S. Ambassador to 
Lebanon. I cannot help to think that we almost needed to 
include Iran in the title of this hearing given its hand in 
these disturbing matters, and look forward to probing the Iran-
Syria relationship further with you under the chairman's 
leadership. Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you, Mr. McMahon. Mr. Green, did you 
want to make a statement?
    Mr. Green. Thank you, Mr. Chairman, for holding this 
particularly timely hearing. I would like to welcome Ambassador 
Feltman to our committee. Five years ago the U.S. removed its 
ambassador from Damascus in protest to the Assad regime's 
presumed role in the assassination of Lebanon's Prime Minister. 
Now, as the administration prepares to reinstate diplomatic 
ties, we must once again reassess the situation in order to 
move forward with a policy toward Syria that also meets our 
regional goal of a safe and secure Middle East. While it has 
been no easy task addressing the challenges posed by the Syrian 
Government, it is in our national interest to seek the change 
to these troubling policies. Unfortunately, the Obama 
administration's first year of engaging with Assad has yielded 
few substantive achievements.
    While Syrian facilitation of insurgents in Iraq has slowed, 
top U.S. generals and senior Iraqi officials say the problem 
still remains. At the same time, an increasing body of evidence 
suggests that Damascus has provided the terrorist organization 
Hezbollah with a new generation of sophisticated weaponry that 
changes the equation along the Israeli-Lebanese border. 
Therefore, Ambassador Feltman, I hope you will share with us 
whether the President is ready to renew the sanctions on Syria 
under the Executive Orders, or whether there is consideration 
in allowing the Executive Orders to expire. Is the 
administration considering lifting any of the sanctions on 
Syria, including those imposed pursuant to the Syrian 
Accountability Act? While I appreciate the steps of the 
administration to normalize U.S. relations with Syria, in 
absence of any tangible changes in the Syrian Government, we 
must continue to be steadfast and insist in order to achieve 
serious bilateral relations. Again, Mr. Chairman, thank you for 
holding the hearing. I look forward to the testimony of our 
witness.
    Mr. Ackerman. Thank you, Mr. Green. Mr. Issa?
    Mr. Issa. Thank you, Mr. Chairman. After my long absence 
and my current leave of absence, it is good to be back. Mr. 
Chairman, I want to thank you for holding this hearing. I think 
nothing could be more timely than to have an Assistant 
Secretary whose experience as the Council General in Jerusalem, 
and then during perhaps the worst of all times to be Ambassador 
in Lebanon. Like an earlier speaker, I was in Israel during the 
2006 war. Unlike the earlier speaker, I was also in Lebanon. I 
saw that because of the actions of Hezbollah, paid for and 
funded by a combination of Iran and Syria, both Israel and 
Lebanon suffered greatly in that war. We could push blame 
toward the Lebanese for not doing enough to secure their 
borders or we could push blame toward Israel for using cluster 
bombs on areas of Lebanon, including civilian areas, but 
neither would have occurred without Iran's constant support and 
use of its proxy in Damascus.
    I do support engagement. I even go so far as to support 
that after this long hiatus, I was with Ambassador Scobie just 
before she was withdrawn, I do support it could be time to send 
an ambassador back. Mr. Chairman, Secretary, it is very clear 
that ambassador must go back with the kind of tough language 
and plan that will make a difference in the behavior. I believe 
in engagement, I believe in meetings, I have met with Bashar 
Assad from the first meeting after he was President through 
perhaps one of the last to be made, but a little bit like our 
former chairman, Mr. Lantos, I believe we need to walk in and 
say we could perhaps be your best friend, and then give them 
hell.
    We need to make it very clear that Syria's behavior, both 
in their support of al-Qaeda fighters going into Iraq to the 
detriment and the loss of American lives and their continued 
relationship with Iran, they have put us in a position where we 
cannot ease sanctions, we cannot support that government in its 
current form. Nothing stops us from having constructive 
engagement, nothing should stop us from recognizing that there 
are Americans who have families in Syria, and, of course, 
conversely, Syrians who have families in America. We have deep 
ties in the region. They are long. We even have a period of 
time in which Syria was our ally, but that period is now long 
ago.
    Mr. Secretary, I have known you, I have known you to be a 
fighter, I have known you to be a survivor, I have known you to 
care about these people and their well-being enough to tell 
them what they don't want to hear. I hope that with your 
guidance the new ambassador, if confirmed, would, in fact, go 
with the kind of understanding that we must change Syria's 
behavior, and that the Obama government must recognize that 
engagement should not turn into a simply blind eye toward the 
behavior of one country, particularly when this country has a 
history of turning a blind eye to Syria's occupation of 
Lebanon, and their continued support of Hezbollah for a long 
time in the country and a very, very clear movement by the 
current, well, by the same Syrian regime now to reassert itself 
in Lebanon.
    I do have to note that we left Syria because of the 
assassination of Rafic Hariri. Saad Hariri has gone to Damascus 
in order to try to improve relations between these two 
countries. That is a brave move for a man who truly believes he 
went to meet with somebody who had a hand in the assassination 
of his own father. We need to be as brave, but we also need to 
support the bravery of the people of Lebanon and the people of 
Israel who have put up for too many years with the kind of 
attacks in violation of international law by a country who 
enjoys full diplomatic status around the world. So, Mr. 
Chairman, I look forward to hearing Ambassador Feltman's 
statements, I look forward to working with him in his current 
position, as I have in the past, but I join all the rest of the 
speakers--the opportunity to speak last is actually very good 
because I got to hear and agree with every statement made 
before. With that, I thank the Mr. and yield back.
    Mr. Ackerman. Thank you, Mr. Issa.
    Mr. Burton. Can I make one comment real quick, Mr. 
Chairman, before we go further?
    Mr. Ackerman. Absolutely, Mr. Burton.
    Mr. Burton. I just want to say that he is Lebanese.
    Mr. Ackerman. In that case, I want to reconsider my----
    Mr. Issa. I was born in Cleveland. Let us make that 
perfectly clear.
    Mr. Burton. Yes, I understand, but he is of Lebanese 
descent, and so is my wife, so, you know, I have to be real 
careful about what I say around this place.
    Mr. Ackerman. The record will so indicate.
    Mr. Burton. My wife is better looking.
    Mr. Ackerman. The gentleman was not recognized for that 
purpose. I am delighted to welcome back to the subcommittee a 
very distinguished diplomat and dedicated public servant, 
Ambassador Jeffrey Feltman, who was sworn in as Assistant 
Secretary of State for Near Eastern Affairs on August 18, 2009. 
A career member of the Foreign Service since 1986, Ambassador 
Feltman served as Principal Deputy Assistant Secretary in the 
Bureau of Near Eastern Affairs from February 2008 to his 
present assignment, serving concurrently as Acting Assistant 
Secretary for the Bureau since December 2008. From July 2004 to 
January 2008, Ambassador Feltman served as the U.S. Ambassador 
to the Republic of Lebanon. Prior to his assignment in Lebanon, 
he held posts in Iraq and Israel at both the U.S. Embassy and 
the Consulate in Jerusalem and Tunisia, among other countries. 
It is always a pleasure to welcome you back, Mr. Ambassador. 
Your entire statement will be placed in the record. You may 
proceed as you will.

   STATEMENT OF THE HONORABLE JEFFREY D. FELTMAN, ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
       STATE (FORMER UNITED STATES AMBASSADOR TO LEBANON)

    Ambassador Feltman. Thank you, Mr. Ackerman. Mr. Ackerman, 
Ranking Member Burton, distinguished members of the committee, 
thank you for the opportunity to appear before you today to 
discuss U.S. policy toward Syria, and thank you for allowing me 
to submit a longer statement for the record. In holding this 
hearing on Syria, the committee is examining a policy area 
where the United States faces a number of challenges and 
adverse conditions. Syria is a nation with which we have grave 
concerns and a number of serious disagreements ranging from 
human rights practices to proliferation of weapons of mass 
destruction.
    We also believe, however, that we should test the 
proposition of whether we might find some long-term interests 
in common through the practice of clear eye diplomacy. After 
all, Syria has said, just one example, that it wants to see a 
stable, sovereign, secure, prosperous Iraq. That is our goal. 
And unlike the Iranians refusal to acknowledge Israel's right 
to exist, Syria's leaders have also said repeatedly over the 
past 16 years or so that they view a comprehensive peace in the 
Middle East as being in Syria's interest. To that end, the 
Syrians have pursued a number of rounds of peace negotiations 
with Israel. We, of course, want to see a comprehensive peace 
in the region, and that would, of course, have to include 
Syria.
    You know, I share what all of you have said today, the 
feelings that you have expressed today. Syria's actions fall 
far short of its words in favor of peace in the region and a 
stable and prosperous Iraq. Syria's Government also denies its 
citizens many essential rights and freedoms. It maintains an 
alliance, as you have all noted, with Hezbollah, one of the 
most dangerous and destabilizing elements in the region. It 
facilitates many of Iran's aggressive policies. For many years, 
the United States has sought changes to these and other Syrian 
policies. The question is what are the tools that we should use 
when seeking changes to Syrian policies? What tools might lead 
to a more constructive U.S.-Syrian relationship to the benefit 
of both of our countries?
    You know, I know that by virtue of my tenure as Ambassador 
to Lebanon I am sometimes, often, personally associated with 
the period when the United States was a leading member of a 
coalition determined to isolate and to pressure Syria into 
withdrawal from Lebanon. I believe that the tools that we used 
at the time were appropriate and effective. After all, Syria 
did withdraw from Lebanon. That approach worked in a particular 
context. There was an extraordinary unity of purpose at the 
time among the majority of Lebanese in the aftermath of the 
murder of Prime Minister Rafic Hariri, and that same 
extraordinary unity among the key regional and international 
players. Such remarkable unity of purpose among so many 
different players is not sustainable indefinitely. Today, the 
Lebanese are pursuing a number of different, often conflicting, 
agendas, including reproachment by many with Syria.
    The international consensus of not talking to Damascus has 
dissipated. The French, the Saudis, the Turks, many others, 
have all moved to have more robust dialogue with the Syrians. 
For over a year the Israelis engaged Syria in several rounds of 
proximity talks facilitated by Turkey. Clearly, the intense 
regional and international consensus that made our isolation 
approach so effective back in 2005 no longer exists. We must 
find the tools that are going to work today. I believe that the 
United States must have principal engagement with Syria as one 
of our tools, though let me add that engagement with Syria does 
not come at the expense of our friends in the region, such as 
Lebanon and Iraq. We are moving cautiously. By using 
incremental steps focused on areas of mutual interest, we are 
gauging the Syrians' sincerity.
    We have discussed a number of the areas where we believe we 
may be able to make progress. In return for positive steps on 
the parts of Syria, we are prepared to consider steps we might 
take consistent with reciprocity, consistent with our 
principles and consistent with our commitments to our allies in 
the region. The most important part of engagement is to discuss 
directly, firmly and at authoritative levels those parts of 
Syrian policy that most trouble us. When President Obama 
directed that American officials engage Syria's leaders 
directly, he was under no illusion that face to face dialogue 
would instantly, from one day to the next, overturn Syrian 
policies with which we disagree.
    Indeed, the most disagreeable and dangerous of these 
policies is not likely to be fully reversed unless, and until, 
Syria and Israel resolve the differences that separate them, a 
process that we are trying very hard to facilitate. Now, to 
those who would point to periodic visits of senior American 
officials to Damascus, who would cite continued Syrian support 
for Hezbollah and Hamas and then declare engagement a failure, 
I would say the following: The United States and Syria have 
been substantially at odds for several decades. The decision of 
our President to draw on a full inventory of diplomatic tools 
at his disposal does not anticipate instant success. Rather, it 
marks the initiation of a sustained effort to succeed where in 
the past we have failed to make progress.
    We need, I think, to proceed with patience and persistence. 
If confirmed by the Senate, Ambassador Robert Ford should soon 
be posted to Damascus, enabling him to proceed with his work as 
the President's personal representative. As we try to minimize 
the prospects of war and maximize the chances for peace in a 
region where our national security is defended by American men 
and women in uniform, we have no choice but to use all the 
tools of state craft at our disposal. In closing, I would like 
to recall President Obama's words last December in Oslo when he 
said that engagement lacks the satisfying purity of 
indignation.
    He said,

        ``But I also know that sanctions without outreach, 
        condemnation without discussion, can carry forward only 
        a crippling status quo. No repressive regime can move 
        down a new path unless it has the choice of an open 
        door.''

We simply must make sure that the leaders in Syria and 
elsewhere understand fully and accurately the position of the 
United States before they act. This is not something to be left 
to rumor, or left to second or third-hand knowledge, or to 
others. This is our job, and to do less would amount to 
negligence. It would amount to unilateral diplomatic 
disarmament. Thank you again, Mr. Chairman. I look forward to 
taking any questions you and the committee may have.
    [The prepared statement of Ambassador Feltman 
follows:]<greek-l>Jeffrey Feltman deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you very much, Ambassador. I have not 
seen you that animated for a while. I suppose you feel pretty 
strongly about this. I guess if you don't have an ambassador, 
then you don't have an ambassador that you can recall. I 
suspect there are quite a few that I have seen that I wish we 
had an ambassador just for that purpose. Let me ask you, there 
have been reports in the media that the President of Israel 
while on a trip overseas, I believe, proclaimed that Syria has 
had some traffic over missiles intended for Hezbollah. What can 
you tell us about that?
    Ambassador Feltman. Mr. Chairman, the specific issue, 
reports in the press on SCUD missiles, I need to discuss in a 
different setting than this one, but let me make some comments 
on this area. We have been concerned about the provision of 
weapons to Hezbollah for some time. It reinforces the point 
about needing to sending an ambassador back to Damascus. We 
don't normally say everything that we are doing behind the 
scenes publicly, but I need to make a couple of references 
here. On February 26, I asked the Syrian ambassador, Imad 
Mustafa, to come see me in my office because we were so 
concerned of information we had that Syria was passing 
increasingly sophisticated ballistic weapons to Hezbollah.
    On March 1, a couple days later, the NSC delivered a 
similar message to the Syrian ambassador. On March 10, Bill 
Burns delivered a similar message to the Syrian ambassador, who 
then has gone publicly and said we have never delivered such 
message. Either he is not listening, or he is not delivering 
the message to his castle, or something else, but it reinforces 
the point that when we have an issue of this urgency, we need 
to be having access to the leadership in Syria to express our 
concern.
    Mr. Ackerman. Let me get a clarification. You said that you 
said to the ambassador that we had information about the 
transference of ballistic missiles. You did not say SCUDs, is 
that correct?
    Ambassador Feltman. That is correct.
    Mr. Ackerman. Okay.
    Ambassador Feltman. But a general point here. President 
Assad is making decisions in a very volatile and dangerous 
region. Syria has made mistakes before, and Syria has, in fact, 
paid the consequences for those mistakes that they have made 
before, but not only Syria, it has affected the region. He is 
listening to people like Hassan Nasrallah, he is listening to 
people like Ahmadinejad, you know, people made reference to the 
February so-called summit he hosted. We need to be making our 
message to him loud and clear and directly. It is not the same 
to have an embassy without an ambassador. I know. I have been 
in the diplomatic service for well over 20 years.
    You go in in the Arab world, and many times at a lower 
level if you are not the ambassador, and that lower level 
official is not going to give bad news higher up. When 
President Assad is taking decisions that could affect war and 
peace in his region, he needs to have a clear understanding of 
what the implications are, what the U.S. positions are what the 
red lines are. That is one reason why we are sending an 
ambassador back to Damascus, assuming the Senate confirms 
Ambassador Ford.
    Mr. Ackerman. We have spent a large part of the time 
discussing the sending back of an ambassador. There are no 
votes in this House to confirm an ambassador or otherwise. 
Could you give us an understanding of where you think this sits 
in the Senate?
    Ambassador Feltman. Of course. It has been voted up the 
Committee of the Ways, confirmation by the full Senate. There 
are consultations ongoing with many of the same questions that 
some of the members of this committee asked about it. We would 
like to see him confirmed and in place as soon as possible. We 
would like to have had him in place now.
    Mr. Ackerman. Is there a question that he won't be 
confirmed? Is that why you are that concerned?
    Ambassador Feltman. Well, you remember it took me a few 
months to get confirmed, so I could be talking from my own 
personal experience. I think we need to make the case firmly to 
everybody about why it is that having an ambassador in Syria 
allows us to be effective in our diplomacy. It is not a reward 
to this or that party.
    Mr. Ackerman. Well, my time is just up. I am going to keep 
other members to the time, so I will call upon Mr. Burton.
    Mr. Burton. You know, I have great confidence in the 
Mossad. They are pretty good. They tell me that their 
intelligence gathering capability is about as good as the CIA, 
which, incidentally, is under assault right now which is kind 
of unfortunate, but nevertheless, the Mossad, I am sure, told 
their top officials that they had information that SCUD 
missiles were being transported through Syria to Hezbollah. So 
I know you want to do this in a closed meeting, and Mr. 
Chairman and I have just talked about that and I am sure we 
will probably do that, but just assuming, assuming that is the 
case, why in the world would we want to reward Syria with an 
ambassador? You know, this kind of thing smacks of appeasing 
somebody that is kicking you in the teeth or someplace else 
even more severe.
    I remember in my history that Lord Chamberlain went to 
Munich trying to pacify Hitler by saying, you know, if we sign 
an agreement, we will, you know, maybe give you an ambassador 
or whatever it is, that you won't expand beyond the 
Sudetenland, and we ended up with 60 million people getting 
killed in World War II. I just don't understand that. Maybe you 
can explain to me why you think this is a positive step. Now, I 
don't have any problem with Syria getting an ambassador if they 
show some real reasons why they should have diplomatic 
relations with us, but they are still labeled a terrorist 
state, they have been supplying Hezbollah, and Hamas and 
possibly al-Qaeda, and that really troubles me.
    Then, I just said in my opening statement, I want to read 
this one more time, it said this relationship was further 
evident, talking about the Syria-Iran relationship, in a 
February meeting in Damascus less than 1 week after Under 
Secretary Burns' visit between President al-Assad, President 
Ahmadinejad and Hezbollah Secretary General Hassan Nasrallah 
where the triumvirate guaranteed ``their resistance against the 
U.S.-Israeli alliance,'' and as one foreign policy article put 
it ``openly mocked U.S. efforts to distance Syria from Iran,'' 
and stated that his government ``is preparing ourselves for any 
Israeli aggression.'' This was just not too long ago and right 
after we had Under Secretary Burns visiting and talking to 
them.
    I mean, it is like they just spit right in our face, the 
three of them together. So, you know, I understand that the 
President has a different approach to foreign policy, you know, 
he has a softer approach saying he wants to reach out and try 
to make, you know, the world a safer place because we are 
having, at least attempting to having relations with everybody, 
but these guys are continuing to give aid and comfort to the 
enemy of Israel, our strong ally, they are giving them weapons, 
SCUD missiles that can reach any part of Israel, at least this 
is what I think, and we are going to go ahead and confirm an 
ambassador over there?
    Now, you know, I have talked to the Syrian ambassador here 
and he seems like a nice guy, and he has got a lovely wife, and 
I would like to see us have a positive relationship with Syria, 
but I don't see how in the world we can take steps in that 
direction if this kind of crap is going on. Pardon my 
vernacular, but I just would hope that you would take that 
message back to the administration, and I certainly will convey 
it to my colleagues in the Senate saying, hey, you know, let us 
let them know that we would like to have relationships, but we 
certainly don't want to reward them when they are kicking us in 
the teeth or spitting in our eye. You can comment, if you would 
like.
    Ambassador Feltman. Representative Burton, with all due 
respect, I disagree that sending an ambassador is a reward. 
President Assad, as I said, he is making decisions. He is 
making decisions that could send the region into war. He is 
listening to Ahmadinejad, he is listening to Hassan Nasrallah. 
He needs to listen to us, too.
    Mr. Burton. Excuse me. Let me interrupt. I want to read you 
this one more time. This is important. President Ahmadinejad, 
Hezbollah Secretary General Hassan Nasrallah and Assad said 
they guarantee their resistance against the U.S.-Israeli 
alliance, and, as one foreign policy article said, openly 
mocked U.S. efforts to distance Syria from Iran and stated that 
his government is preparing ourselves for any Israeli 
aggression. That doesn't sound like he is willing to start 
talking. Now, go ahead. I am sorry. Go ahead.
    Mr. Ackerman. Mr. Engel?
    Mr. Burton. Can we let him just respond real quickly?
    Mr. Ackerman. Yes, but you are going to have to keep it 
brief or allow us each extra minutes to tell whether we have a 
lovely wife.
    Mr. Burton. Okay. Well, you can respond later then.
    Mr. Ackerman. Go ahead, Ambassador.
    Ambassador Feltman. I would just like to make a comment on 
that awful meeting in Damascus that took place because it is 
interesting. If you watch the sort of travel politics of the 
Middle East, you will find there is a pattern that as Western 
visitors go to Damascus, you know, the French, the Americans, 
even the Saudis in some place, you soon see the Iranians 
showing up, and it is interesting. It may be telling that, in 
fact, there is the sudden sort of summits after there has been 
a U.S. visitor, or a French visitor, a Saudi visitor. It 
suggests to me that there is more going on, and it is not all 
negative, behind the scenes.
    Mr. Engel. Thank you, Mr. Chairman. Ambassador Feltman, you 
have had a long and distinguished record that I have admired, 
other people have admired, so I mean no disrespect to you, but 
I listened to your words very carefully in your opening 
statement and you said, ``engagement with Syria will not come 
at the expense of our friends in the region, such as Lebanon 
and Iraq.'' Does that also include Israel?
    Ambassador Feltman. Yes. Absolutely. Unequivocally.
    Mr. Engel. Okay. I am glad it does because sometimes I 
wonder if the administration still considers Israel a friend.
    Ambassador Feltman. Absolutely. Our desire to get the 
comprehensive peace is because it stems from our commitment to 
Israel's security.
    Mr. Engel. Okay. You know, I am glad to hear it. You have 
heard a lot of consternation here on both sides of the aisle 
about Syrian transfer of missiles to Hezbollah. I know you said 
you couldn't really say a lot of this publicly, but what can 
you tell us publicly? What did the Syrians actually transfer to 
Hezbollah and when did they do it?
    Ambassador Feltman. Congressman, I really am sorry. I am 
just not able to give you a very satisfactory answer in this 
setting on that. I hope that we would be able to in other 
settings, or perhaps in the future.
    Mr. Ackerman. If the gentleman would yield?
    Mr. Engel. Yes. Certainly, Mr. Chairman.
    Mr. Ackerman. We will be inviting the Ambassador, the 
Secretary, to meet with us in a different setting.
    Mr. Engel. Okay.
    Ambassador Feltman. I mean, what I can say is this is a 
really, really serious concern of ours. If these reports turn 
out to be true, we are going to have to review the full range 
of tools that are available to us in order to make Syria 
reverse what would be an incendiary provocative action. You 
know, I think the United States has shown in the past that we 
are able to act when there has been actions like this. I expect 
that all options are going to be on the table looking at this, 
but this is a serious allegation. If this proves to be true, I 
would argue that Syria has made a mistake. Syria has made 
mistakes in the past, Syria has paid the consequences for 
mistakes in the past.
    The trouble is it is not just Syria that pays for the 
consequences of Syria's mistakes when we are talking about this 
volatile region. It is an argument, Congressman Engel, why I 
think it is so important that we have an ambassador who is 
explaining all this to the senior leadership of the Syrian 
Government. An ambassador is not a reward, it is a tool for us, 
among other tools, to advance our policies. Not a single one of 
these waivers that you have mentioned has been lightened, has 
been canceled, has been set aside. They are all still in place. 
We are talking about taking an additional tool out of the 
toolbox to use.
    Mr. Engel. But with all due respect, Mr. Ambassador, I 
mean, I understand the logic of, you know, everybody else is 
talking to them, why shouldn't we be there, why shouldn't we do 
it? You know, that is really great, but, you know, what are 
their responsibilities? I don't think it should be a reward 
that we send an ambassador. I think we should send an 
ambassador when it is in our best interest. Now, you and I are 
going to disagree about whether it is in our best interest 
because I think that if Assad thought that there was any real 
chance of any kind of a reproach moment with the United States, 
he wouldn't have welcomed Ahmadinejad shortly thereafter, I 
think it was the very next week, in Damascus and made all the 
statements that Mr. Burton mentioned.
    I agree with what Mr. Burton said. You know, the SCUD 
missiles are the last in a long line of egregious behavior by 
Syria. Several years ago we all remember Israel and Lebanon, 
Israel and Hezbollah, actually, fought in a war that everyone 
was mortified that such a war would happen, and as part of the 
agreement ending that hostility, there was not supposed to be 
any kind of a rearming of Hezbollah. Now, I am told, and again, 
the SCUD missiles is just the last straw that broke the camel's 
back, but I am told that in the past 3 years Syria has been 
facilitating rearmament of Hezbollah in Lebanon, which 
undermines the Lebanese Government, and that Hezbollah is, in 
essence, stronger than ever before. I would like you to comment 
on that.
    Ambassador Feltman. Three years in which we didn't have a 
U.S. ambassador able to even make the point----
    Mr. Engel. Surely you don't think having an ambassador or 
not having an ambassador had anything to do with that. Assad 
cannot be trusted, and what are we doing--you know, when you 
sleep with the dogs, you get fleas.
    Ambassador Feltman. You know, it is----
    Mr. Engel. Could I get an answer, Mr. Chairman?
    Mr. Ackerman. On the next round. Members may ask their 
questions in one round and get an answer in the next round, but 
they are going to receive their 5 minutes. I can give the 
witness a chance to testify, but that is up to the members.
    Mr. Royce. Thank you, Mr. Chairman. Syria has had a 
chemical weapons program for many years, and according to the 
Director of National Intelligence, it has the capability to 
deliver chemical agents either by plane, ballistic missile, or 
by artillery rockets. Keeping in mind my opening comments about 
the fact that I saw the results of those, of the transfer from 
Syria of the Katyusha rockets with 70,000 ball bearings in 
every one of those and they were coming down like rain in 
Haifa, here is my question: Would Syria hesitate to transfer 
such weapons, given what they have transferred in the past to 
Hezbollah?
    Ambassador Feltman. Congressman, I don't know. We have to 
make the case for them not to do it. We have to make the case 
internationally, regionally. It is not like we are sitting 
around here passively just saying, huh, will they do it, will 
they not do it? I have had a long conversation this morning 
with the Foreign Minister of Syria, with Walid Mouallem, who 
categorically denied it, by the way, and said I could share 
that more publicly. We are not being passive as we wait and 
analyze will they, will they not do it? We are trying to find 
all the ways to show the Syrians why it is firmly not in their 
interest to carry through with such transfers, trying to show 
the Syrians why it is not in their interest to permit or to 
facilitate giving of weaponry to Hezbollah, transferring 
weaponry across the Lebanese border.
    Mr. Royce. The international community is engaged as well. 
I am thinking of the IAEA----
    Ambassador Feltman. Exactly.
    Mr. Royce [continuing]. And their engagement with Syria. 
But Syria has continued to stonewall the IAEA with respect to 
their reactor, right? What is our assessment of the Syrian 
nuclear program? We have had the destruction of that reactor, 
but is the program continuing?
    Ambassador Feltman. Well, I mean, we would share the 
concern that the IAEA has expressed, that the international 
community has expressed about Syria's intentions. Syria is a 
signatory to the NPT. Being a signatory provides certain 
obligations onto Syria not to develop nuclear weapons and to 
provide the access to IAEA inspectors to show, with confidence, 
that they are complying with the NPT. Clearly, that hasn't 
happened. I have seen reports about Syria permitting access to 
another previously declared facility, but it is not related to 
the Alkhabar one that you are referring to. In order for Syria 
to be able to restore confidence by the international community 
in the nature of its nuclear program, in its compliance with 
its NPT obligations, it needs to give full access to the IAEA. 
You know, we await the next reports of the IAEA, but we 
understand, you know, the concerns right now.
    Mr. Royce. Have we seen any further North Korean/Syrian 
contact, by the way, to your knowledge?
    Ambassador Feltman. To my knowledge, no, but I may not be 
the----
    Mr. Royce. Okay. Let me yield the balance of my time to my 
colleague from New York who wanted to have his question 
answered and he ran out of time. I am going to do that at this 
time. If you would like to respond to Mr. Engel's question.
    Mr. Ackerman. Mr. Engel?
    Mr. Royce. Mr. Engel?
    Mr. Engel. Yes. I thank the gentleman. I was asking about, 
you know, engagement. You know, you just said that you picked 
up a phone and you spoke to Walid Mouallem, a former Ambassador 
here, Syria's ambassador to Washington, who is now the Foreign 
Minister, and you argue that only by sending an ambassador to 
Syria could we have top level discussions with the Syrian 
Government. Well, you just said that we currently do not have 
an ambassador, he is being confirmed, and you were able to pick 
up the phone and speak to the Foreign Minister. Who is more top 
in the Assad government than the Foreign Minister? So I don't 
understand why you keep saying that only by having an 
ambassador can we have communications with them.
    Ambassador Feltman. Congressman, I am sorry if I implied 
only by an ambassador. What I am saying is that it enhances our 
ability to get our message across. The way that it works in the 
Arab world in a lot of the places, I hate to generalize, is 
that, you know, you go in and a message doesn't go very far, 
particularly a negative message, a bad message. An ambassador 
can go in at a very high level on a regular, continual basis. 
When we have issues of such national security concern, as we 
have with Syria, I think it is ever more important that we 
maintain a dialogue at the top level, particularly if we know 
who else is----
    Mr. Ackerman. Mr. Royce's time is now up. I would ask the 
Ambassador if he could conclude. If the members want, we will 
do more than 5 or 10 minutes or 15, but I think we have to try 
to be consistent. Ambassador, please continue. Finish your 
thought.
    Ambassador Feltman. No. It is just, my thought was that--I 
am repeating myself, Mr. Chairman, and I apologize, but when we 
know where President Assad is getting his information, which is 
the constant contact with the Iranians, with Hezbollah, with 
Hamas, he needs to be able to hear from us directly and 
continually as well. That is my argument. We are not doing 
engagement because it is a pleasurable experience with the 
Syrians. We are doing engagement because it is in the U.S. 
national interest.
    Mr. Ackerman. Mr. Costa?
    Mr. Costa. Thank you, Mr. Chairman. Mr. Ambassador, I mean, 
I think we get what is in our national interest, but are you 
telling us that we have no other contacts with the Syrian 
regime? I mean, no intermediaries, no third channels, no 
indirect conversations that are currently taking place?
    Ambassador Feltman. Representative Costa, you are 
absolutely right. We have other channels to the Syrians. When I 
meet with any of my colleagues in Europe, for example, we often 
talk about Syria, compare notes, because we all recognize the 
challenges that Syria poses. We have a variety of ways. These 
issues are so important to us that the Syrians shouldn't always 
hear from second party, from third party, from whatever their 
ambassador in Washington may tell them we are saying, they 
shouldn't hear about rumor, read about it in the paper. They 
need to understand from us what are the implications of what 
they are doing, the potential dangers of what they are doing.
    Mr. Costa. But through these, and I am not talking about 
through third parties, but I am talking about Americans that 
are conveying either through, I mean, we have had Americans 
visit Syria and others, that there is any ambiguity as to what 
this administration's policy is toward Syria and what the 
possible consequences are, you think that President Assad 
doesn't understand that there is consequences to his actions?
    Ambassador Feltman. Maybe I could use a positive example. 
We have had several references to Iraq. Iraq is something that 
was high on my list when I went to Syria in March, and May and 
then later last year. Now, I think you will hear U.S. generals 
will talk about the number of foreign fighters that are coming 
through the pipeline through Syria into Iraq to do really bad 
stuff in Iraq has dropped. It was, you know, like over 100 a 
couple years ago, it is less than 10 a month now.
    Mr. Costa. Has that dropped because of our efforts or 
because----
    Ambassador Feltman. It is in part of our efforts, it is in 
part the Iraqi efforts, but it is in part the Syrian efforts as 
well. The Syrians have shut down some of the foreign fighter 
pipelines that go through Syria that exploit Syrian territory. 
I believe firmly that they have done that because we are 
talking to them about it. We are talking to them about, you 
know, where we see our interests, where we see their interests, 
and of something that perhaps could have been done more quickly 
had we been able to have the continued high level dialogue that 
we now have when we have visitors but we aren't able to sustain 
on a continual basis. You know, one of the members mentioned 
about how would we define progress. Well, if I could, speaking 
of Iraq, I would like to borrow a line from one of our most 
esteemed diplomatic colleagues whom we all respect, Ryan 
Crocker. Ryan Crocker was once asked how do you define progress 
in Iraq? He said, well, it is not going to be linear. You know, 
you are going to see some progress here, you might see some 
progress here, and then some stagnation, then something else 
here. I think that is what we are talking about. We are not 
talking about that we are going to see just because we have 
sent an ambassador back to Damascus, that just because we are 
sending visitors, a line that goes from A to B to C to D. I 
think we are going to see a nonlinear reaction.
    Mr. Costa. Okay. I get that. I get that response. Okay. So 
let us put a little more meat on the bone. When Under Secretary 
of State William Burns traveled to Syria in February, I guess 
he was questioned afterwards candidly. We can discuss areas of 
which we disagree, but we also identified areas of common 
ground on which we can build on. So if we talk about it not 
being linear and something here and something there, then what 
are the something here and something there that we can build 
on, in your opinion, that would I guess at some stage include 
an ambassador to Syria?
    Ambassador Feltman. Well, frankly, I think that the Iraq 
portfolio is extremely important.
    Mr. Costa. The what?
    Ambassador Feltman. The Iraq portfolio is extremely 
important. Not only the issue of security of our forces in Iraq 
and the foreign fighter pipeline, but also the situation of 
Iraqi refugees. Syria hosts hundreds of thousands of Iraqi 
refugees. They have provided them healthcare, education. We 
would like to see them open up the labor markets so they can 
provide income, loosen up on some of the NGO restrictions to be 
able to help them, but it is an area where I believe that we 
have a national interest in working with the Syrians, and I 
believe that is optimistic. This may sound minor to the 
committee, but I am always concerned about the safety and 
security of the NEA family, our Americans and Syrians, 
Americans and anyone who are working overseas. The Syrians have 
been very responsive to our request to try to find new property 
to build a safe and secure working facility. This has happened 
since we have started talking to the Syrians. It didn't happen 
for years before. As I said, it is not linear. We are not 
talking Hezbollah weapons progress right now, but there are 
areas where talking to the Syrians have led to some positive 
developments.
    Mr. Costa. My time has expired. Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you, Mr. Costa. Mr. Rohrabacher?
    Mr. Rohrabacher. You know, with all due respect, Mr. 
Ambassador, I don't think your approach has any significance at 
all in the major issues to be solved there. Making it a little 
easier on the Syrians this way or that way and how they can 
deal with some influx that came in from Iraq, I am sorry, that 
is not what is keeping us in a belligerent relationship with 
Syria.
    Ambassador Feltman. And what have we eased up on, with all 
due respect, Congressman? There are four Executive Orders in 
place. The Syria Accountability Act remains in force, the Iran-
North Korea-Syria Nonproliferation remains in force, the 
Treasury rulings remain in force. Where have we given them a 
gift?
    Mr. Rohrabacher. I got your point. You are saying the stick 
doesn't work, and I am trying to tell you that the let us make 
things here easier, give you some sweets at the end, doesn't 
make it better as well. What I would like to ask you is the 
questions I asked in the beginning. What are the central 
issues, the central issues that need to be solved in order for 
us to take Syria, which is now in a belligerent position, there 
is--all these egregious behavior things that have been detailed 
today are absolutely accurate. I will tell you that in the 
Soviet Union that long list existed, but we turned the Soviet 
Union into at least someone wasn't belligerent anymore toward 
us. What are those specific things that we can do that need to 
be solved?
    Do the Syrians demand that they are not going to be friends 
with the West until a Jewish state of Israel no longer exists 
and the Palestinians are able to go home? Is that a 
prerequisite? If it is, what the hell are we even worrying 
about them for, because that is never going to happen. If it is 
short of that, what are those issues? I mentioned the Golan 
Heights. I have talked to Israelis, I have talked to Syrians, 
and they tend to think that the actual security element of the 
Golan Heights is not something that is the biggest stumbling 
block. Their reasoning Israelis don't want to make the deal is 
because it is also the water issue, which is vital to the 
Israelis as well, I might add. Is there something? Okay, the 
Golan Heights. That is an issue that needs to be solved. What 
else? Is that the only issue? If it is, let us try to solve 
that.
    Ambassador Feltman. No, I agree with you, Congressman, that 
it is the peace issue that is going to take away the worst 
problems that we have.
    Mr. Rohrabacher. Right.
    Ambassador Feltman. It is the peace issue. You know, the 
disarming of Hezbollah, the hosting of Hamas, all these issues 
are going to be probably solved most easily through a 
comprehensive peace. That is why we are pushing so hard.
    Mr. Rohrabacher. Correct. Correct. If you take them from a 
belligerent country into a country like Jordan or Egypt, all of 
those issues will be solved. So how do we do it? We don't do it 
and just say we are going to send an ambassador and rah, rah. 
No. What is the specific issues the ambassador has to solve? 
Golan Heights is one. We know that, right?
    Ambassador Feltman. You know, Senator Mitchell has been 
going to Damascus because of the very issues that you are 
identifying here. We want to get to a comprehensive peace. The 
Syrians are different than the Iranians. You talked about the 
question about are they going to remain belligerent until 
Israel disappears? That is not what they say, that is not how 
they are negotiating, history has indicated. They have said 
they want to live in peace in the region. They have gone 
through a number of rounds of talks, direct and indirect, with 
the Israelis on how you get to that peace.
    Mr. Rohrabacher. Right.
    Ambassador Feltman. So it is a different stance than Iran 
has.
    Mr. Rohrabacher. So you are convinced that with Syria at 
least, they have not made an ultimate demand about the 
nonexistence of Israel by permitting the right of return of all 
the Palestinians, they haven't made that as part of their 
demand of being nonbelligerent. Okay.
    Ambassador Feltman. Their acts don't suggest that.
    Mr. Rohrabacher. Okay. So thus, we should then proceed 
knowing that that is a possibility, because peace is not a 
possibility if that is their position. So there are specific 
things that we need to tackle. First of all, talk to me about 
the Golan Heights.
    Ambassador Feltman. The first thing is how do you get the 
Syrian and Israeli track started again? That is extremely 
important. Senator Mitchell has been spending a lot of time on 
it. The Israelis and Palestinians right now are, I am sorry, 
the Israelis and Syrians right now are starting from a 
different perspective. The Syrians are saying we want to start 
from the presumption that the territorial issue, the Golan 
Heights, is going to be solved, we are going to have all the 
land restored to us in 67. The Israelis are saying we want to 
start without such preconditions, we want to explore where we 
can go. So we have differences in how they want to start, but 
both sides do want to start. Senator Mitchell has been working 
on how we bridge that gap. It is extremely important to get to 
that process.
    Mr. Rohrabacher. And if we bridge that gap, you think that 
we could actually make that turn from belligerency into 
possibly nonbelligerency----
    Ambassador Feltman. It is not going to be like a light 
switch. It is not going to go from one side to the other 
overnight. It is going to be a long process.
    Mr. Rohrabacher. I am not sure you are right about that. I 
have seen other countries do light switch changes, so thank you 
very much.
    Mr. Ackerman. Thank you. Ms. Jackson Lee?
    Ms. Jackson Lee. Mr. Chairman, thank you for this hearing. 
It has been an interesting day, Ambassador. We first had a 
hearing at Homeland Security with former Senators Graham and 
Talent who are on the committee that dealt with weapons of mass 
destruction, and today, this morning, two of your members from 
the State Department were here on the Nonproliferation Treaty 
and the nuclear summit that was held last week. By coincidence, 
our brilliant Mr. has a hearing on Syria. I take no connection, 
but it allows you to think carefully on some of these very 
important issues that we have. First of all, do we have an 
ambassador from Syria to the United States?
    Ambassador Feltman. Yes. He has been here several years, 
something four, five, six. His name is Imad Mustafa.
    Ms. Jackson Lee. And has he been consistently here for 
those 6 years?
    Ambassador Feltman. Yes.
    Ms. Jackson Lee. So he has been through the Bush 
administration. To your knowledge, the previous administration 
was engaging that ambassador? He was not blackballed? He was 
moving around in the country?
    Ambassador Feltman. Well, he was moving around the country, 
certainly. He is a very active blogger, if anyone follows his 
blog. The previous administration minimized contact with him.
    Ms. Jackson Lee. And so he was here, present, but had 
minimal contact.
    Ambassador Feltman. That is correct.
    Ms. Jackson Lee. Even though I had chances, I believe, to 
interact.
    Ambassador Feltman. I think he is very active up here.
    Ms. Jackson Lee. I think he was very active up here. So I 
want to dispel the myth that the Obama administration is soft 
on protecting this nation or soft on engagement. I think it was 
a very bold move for the meeting that was held last week. 
Obviously, there needs to be an end solution to that meeting, 
and that would be that we get agreements that would put us as 
allies against nuclear proliferation. I think the idea of an 
ambassador to Syria is certainly one that is an obvious, that 
we have to engage and know what is going on, but at the same 
time, we have to be firm in knowing what is going on, and our 
positions need to be strong.
    So in our engagement with Syria can you restate for me, and 
if I missed it in your testimony, what is going to be the firm 
position of the United States. If this ambassador happens to be 
confirmed, what will their role be in Syria? Many of us have 
been in Damascus, we have met with Dr. Assad and we have been 
told many good things, that I want to work, I want to be 
collaborative, but what will be our position? Then I want you 
to answer the question as to, it seems like you had an answer 
that said I may not be able to speak about it, but the point is 
we have heard that there is some transit opportunities for Iran 
to provide resources to Hezbollah in Lebanon.
    We see a denial by the Prime Minister of Lebanon. So what 
is it? Is it unspoken? Whatever the case is, I think we have 
some challenges with the destabilization of that region. I 
would like for Syria to be a good neighbor. I frankly believe 
that there is so much work to be done for the Syrian people in 
their economic status and otherwise that that is a full plate. 
So how will we manage our position, and what will that position 
be with the new ambassador in Syria?
    Ambassador Feltman. Thank you, Representative. In terms of 
having a chief admission, an ambassador, back in Damascus for 
the first time in more than 5 years, he is going to be 
pursuing, I think, a fairly simple formula. Syria says it wants 
to live in peace in the region. I think that he will be working 
to see how we could promote the type of actions that would 
prove Syria's words. How could we help change the calculus so 
that Syria would see that it is in its interest to be doing 
actions that are consistent with those words that they want to 
live in peace. These are really tough issues. Also, Syria, I 
would expect, wants to be accepted as a more respected member 
of the international community. That means living up to 
international obligations and also having a certain respect for 
human rights inside Syria, giving respect to its own people. 
The ambassador is going to be pursuing all those sorts of----
    Ms. Jackson Lee. And what will they be pursuing with 
respect to Lebanon and Hezbollah and the alleging interaction 
between Syria and Iran?
    Ambassador Feltman. I mean, our policy is firm. Lebanese 
sovereignty is for the Lebanese. The Lebanese should be in 
control of Lebanon's fate. That is a message that we deliver to 
all the parties in the region, but particularly Syria. All of 
us have an obligation to help in the stability of Lebanon, all 
of us have an obligation to enforce the arms embargo 
incorporated in 1701. This is one of the most serious issues 
that we have got to deal with with Syria every day.
    Ms. Jackson Lee. Thank you very much.
    Mr. Ackerman. Thank you. Well, you guys have changed people 
in that chair in one hearing more than the Mets change pitchers 
in 20 innings. Mr. Fortenberry?
    Mr. Fortenberry. I will just throw strikes, all right?
    Mr. Ackerman. Throw strikes.
    Mr. Fortenberry. Mr. Ambassador, welcome. My best to your 
Deputy, Michael Corbin. We had a very productive visit in 
Nebraska, particularly with the Iraqi refugee community. He did 
an excellent job.
    Ambassador Feltman. Heads a sports event too, I hear.
    Mr. Fortenberry. Wow! That got back to you?
    Ambassador Feltman. Yeah.
    Mr. Fortenberry. Well, he was very generous with his time.
    Ambassador Feltman. He had a great trip. He had a great 
trip.
    Mr. Fortenberry. Good. Good. I am glad to hear that.
    Ambassador Feltman. Thank you for hosting him. He is a good 
guy.
    Mr. Fortenberry. It was very helpful for him to be here, he 
was very well-received, so thank you for doing that. Let me ask 
you to take this to a little bit higher level. What is 
President Assad's end game? Clearly Syria meddles with 
destabilizing elements in the region. They have some type of 
partnership with Iran, they have, at least in the past, sought 
nuclear weapons capability. Is this to preserve power, is this 
to cut a bet with those who he perceives are going to have 
power so that he is protected, or is this some other hegemonic 
intention?
    Ambassador Feltman. Congressman, your question is a 
difficult one. I would make a few comments. First, Syria is not 
Iran. We don't accept the proposition that Syria and Iran 
alliance is a permanent fixture in the Middle East. Syria is a 
secular state. Iran is not a secular state, shall we say. Syria 
has said it wants peace with Israel and has even engaged in 
talks with Israel. Iran rejects it. So there is obviously a 
different calculus at play when President Assad is making his 
decisions than when the Iranians are making their decisions. I 
look now at what seems to be a growing reproach, an ongoing 
friendship between Syria and Saudi Arabia.
    That must be putting some tensions in the relationship 
between Syria and Iran because certainly Iran and Saudi Arabia 
do not see eye to eye on a lot of issues in the region, 
including relations with Iraq and the sort of government that 
would be emerging in Iraq. So far it looks to me as though the 
Syrians try to hedge their bets a bit, try to keep the door 
open in one direction while keeping their alliance with Iran. I 
would argue that it is part of our diplomatic job to try to 
show the Syrians why it is in their interest to moderate the 
behavior that we find so troubling in the region. You know, the 
Syrians aren't going to simply act because the United States 
asked them to act. The Syrians are going to want to see that 
something is in their interest. That is how we all are as 
countries. Our job is to show them that it is in their interest 
to have the words that they say about living in peace in the 
region match by their actions.
    Mr. Fortenberry. First of all, I think it is important to 
reflect on this very question in order to get to the mechanisms 
by which we could potentially invite Syria to join the 
responsible community of nations internationally, to be a 
responsible player that does want to live in peace in the 
Middle East, but what are those leverage points, if you will, 
that would help turn the relationship to one that is 
productive, stable and has continuity in the future for the 
long range goal of peace, and particularly peace with its 
neighbors?
    Ambassador Feltman. The most important thing, frankly, is 
the Israel-Syria peace track. Comprehensive peace, of course, 
is set on a two state solution between Israel and Palestine, 
but a comprehensive peace would include Syria because that is 
where we really have the leverage to show the Syrians that it 
is in their interest to move in a different direction, when 
they can see that they could actually achieve some of their 
goals in a Syria-Israel peace process. That is the big game. 
That affects Hezbollah, it affects Hamas, it affects 
everything. I don't think that we should be simply waiting for 
the breakthrough which we hope happens to tomorrow on a Syria-
Israel track. We need to be working with the Syrians on a whole 
variety of issues. I mentioned a couple where I thought that 
there was some potential now to move ahead, you know, vis-a-vis 
Iraq and things like that, but there are a lot of really tough 
issues where we need to be dealing with them.
    Mr. Fortenberry. And there is a disposition to do this? An 
openness?
    Ambassador Feltman. You know, the Syrians don't like the 
fact that we have four Executive Orders, the Syria 
Accountability Act, the Treasury ruling, that they are a state 
sponsor of terrorism. They don't like any of that, but frankly, 
the ball is in their court. They would like to see us move away 
from those things. Well, for that to happen, they have got to 
take some actions that correct the troubling behavior. We do 
have some things to talk about, we do have some leverage with 
them.
    Mr. Fortenberry. Thank you.
    Mr. Ackerman. Thank you. There is a vote on in the House 
and we are just about out of time. Maybe 1 minute a piece for 
anther round for those who might want to ask a quick question. 
I have a very quick question. Not that we need to or seek other 
people's advice or guidance in determining U.S. policy, 
especially with the appointment or assignment of ambassadors, 
but certain of our friends are not very reluctant to express 
their opinions or objections from time to time. Much has been 
made of Israel during this hearing this morning. Have we heard 
any objections from the Israelis or any concerns about us 
looking to reappoint an ambassador?
    Ambassador Feltman. In all my discussions with the 
Israelis, Mr., this has not come up. They have not raised this. 
I don't think this is a serious issue for them.
    Mr. Ackerman. Mr. Engel, 1 minute.
    Mr. Engel. Thank you, Mr. Chairman. I will try to do this 
all. The unanswered question I had was that while we are 
concerned about the SCUDs that have come in recently, for the 
past 3 years, Syria has allowed the rearming of Hezbollah in 
Lebanon. That is very upsetting, that Hezbollah is now stronger 
than it was before the war. So, you know, I would like you to 
comment on that. Many friends of Lebanon, which I consider 
myself to be one, believe that Syria is exploiting the end of 
its isolation in order to stage a political comeback in 
Lebanon. I would like you to comment on that.
    Ambassador Feltman. I mean, you know, I, too, Congressman 
Engel, share your concern about Lebanon. I have, you know, 
deeply felt feelings about Lebanon from the time that I was 
there, and I am proud of what we all did together under the 
leadership of the courageous Lebanese people, but what is 
happening is that Lebanon has some real assets, the pluralism 
of Lebanon, the openness of Lebanon, and these are being 
exploited by forces who are using this pluralism of openness to 
promote an agenda that is not Lebanese. The best thing we can 
do for Lebanon is to solve these regional conflicts that allow 
others to make a mess inside Lebanon by exploiting the benefits 
of Lebanon.
    Mr. Engel. I will let it go because I know we have a vote, 
Mr. Chairman. I do look forward, Mr. Ambassador, to that 
private meeting.
    Mr. Ackerman. Ms. Jackson Lee, do you have a----
    Ms. Jackson Lee. Yes, I do. Ambassador, we were on the line 
of questioning about what the forceful position would be for 
our ambassador. What position or what interaction with Dr. 
Assad forcefully would we be taking as it relates to Syria's 
relationship with Iran?
    Ambassador Feltman. You know, these are not going to be 
easy conversations that our ambassador has on a subject like 
Iran. We profoundly disagree with Syria's promotion of Iran's 
aggressive behavior in the region, and that is going to be 
clear from day one that our ambassador is on the ground. As I 
said earlier I don't think we can talk about a light switch 
turning Syria from one side to the other. This is going to be a 
long, long haul. We believe that it is important to make the 
case to Syria why the path they are on is so dangerous for 
Syria and for the region and how there are other aspects, there 
are other ways that Syria can go that are more promising.
    Ms. Jackson Lee. That is what I hope I will hear. Thank you 
very much, Mr. Chairman. Thank you, Ambassador.
    Mr. Ackerman. Thank you. That was the final word. 
Ambassador, thank you very, very much. It has been enlightening 
and more exciting than I suspected.
    Ambassador Feltman. Thank you, Mr. Chairman.
    Mr. Ackerman. Hearing is adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
